Effective March 16th, 2020
Online Consent for Electronic Disclosures
By consenting to receive information electronically at our web site, we may provide to you by electronic
means information regarding your WebBank/Gettington Credit Account, including disclosures required
by applicable federal or state law (collectively "Communications") which may include, but is not limited
to, the following:
•
•
•
•
•

Initial Disclosure statement or agreement governing the WebBank/Gettington Credit
Account
Letters or notices regarding your Credit Account
WebBank/Gettington Privacy Policy
Other federal and state law disclosures, notices and communication in connection with the
application for, the opening of, maintenance of or collection of the Credit Card Account
SafeLine disclosures, Debt Cancellation Agreement and other information related to
optional Debt Waiver products you may elect to purchase

Communications may be sent to your e-mail address provided to us by you. Communications may
include your name and information about your Credit Account, including your balance or the due date.
Electronic Communications may be disclosed to any party with access to your Credit Account or e-mail
account. All Communications in either electronic or paper format from us to you will be considered "in
writing".
You may not apply online unless you accept these disclosures and information electronically.
By clicking the "Accept" button, you agree to:
•

•
•

•

•

Receive this information electronically, access and retain any disclosures received. To do this
you will need a desktop or laptop personal computer with a minimum web browser that
supports 128 bit encryption.
Have ability to receive and read email.
Receive disclosures electronically and confirm that you will download or print the
disclosures for your records, acknowledge that you can access information that is provided
electronically at this website.
Acknowledge that such action constitutes your signature to the credit application and the
Important Terms of your Credit Account and Disclosure Statement. NOTICE! - YOU MUST
THOROUGHLY READ ALL OF THESE DISCLOSURE PAGES AND ASSURE THAT THERE ARE NO
BLANK SPACES. DO THIS BEFORE "SIGNING" ANY AGREEMENT ON THIS WEB SITE,
INCLUDING THE ACCOUNT AGREEMENT, BY USING THE "ACCEPT" BUTTON. YOU ARE
ENTITLED TO A COPY OF THE AGREEMENT YOU SIGN.
Acknowledge that you are providing your consent to receive electronic communications
pursuant to the Electronic Signatures in Global and National Commerce Act and our intent
that this statute applies to the fullest extent possible.

Important Notice: You understand that the information you have elected to receive is confidential in
nature. We are not responsible for unauthorized access by third parties to information and/or
communications provided electronically nor any damages caused by unauthorized access. We are not
responsible for delays in the transmission of any information. We are not responsible for any computer
virus or related problems. If your e-mail address changes, you are required to notify us. You also have
the right to:
•

Change your preference to receive periodic billing statements (from/to paper) at any time
by logging on to MyAccount at Gettington.com.

•

•

Receive any information provided electronically in paper form. We may charge a fee for a
paper copy. To receive specific information in paper form contact us at
customerservice@Gettington.com. Please provide your name, address, 10 digit customer
number and the last 4 digits of your WebBank/Gettington Account number. You may also
write us at Gettington, 6250 Ridgewood Road, St Cloud, MN 56303.
Withdraw your consent to receive all disclosures electronically. If you choose to do so we
will close your Gettington Credit Account. Please provide your name, address, e-mail
address, 10 digit customer number and the last 4 digits of your WebBank/Gettington
Account number. You may also write us at Gettington, 6250 Ridgewood Road, St Cloud, MN
56303.

To notify us if your e-mail address changes, contact us at customerservice@Gettington.com. Please
provide your name, address, current e-mail address, new e-mail address, 10 digit customer number and
the last 4 digits of your WebBank/Gettington Account number. You may also write us at Gettington,
6250 Ridgewood Road, St Cloud, MN 56303.
WebBank Gettington Credit Account Key Credit Terms
INTEREST RATES AND INTEREST CHARGE
Annual Percentage Rate
(APR) for Purchases

29.99%

This APR is a non-variable rate.
How to Avoid Paying
Interest

Your due date is at least 24 days after the close of each billing cycle. We
will not charge you interest on purchases if you pay your entire balance
by the due date each month.
If you are charged interest, the charge will be no less than $.50

Minimum Interest
Charge
For Credit Card Tips from To learn more about factors to consider when applying for or using a
the Consumer Financial
credit card, visit the website of the Consumer Financial Protection Bureau
Protection Bureau
at http://www.consumerfinance.gov/learnmore
FEES
Penalty Fees
Late Payment:
Up to $40.00
Returned Payment:
Up to $40.00
How We Will Calculate Your Balance: We use a method called average daily balance including new
purchases. See below for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided below.

WebBank
Gettington Credit Account Agreement
This is the Agreement which covers your credit account (called your "Account") with WebBank for
purchases you make with Gettington. You can use your Account to purchase goods or services from
Gettington or any merchant authorized to accept your Account, and to pay for goods and services
offered in connection with your Account. You may only use your Account for personal, family, and
household purposes. You and WebBank will be bound by this Agreement from the first time a
transaction is posted to your Account.
In this Agreement, and in your monthly statements ("Statements"), the words "you" and "your" refer to
the person named on the credit account we issue or who has signed application or acceptance forms,
and the words "we", "us" and "our" refer to WebBank. An applicant, if married, may apply for a separate
account.
Your Promise to Pay. You promise to pay for (a) credit extended by WebBank to you or anyone you
allow to use your Account; (b) interest charges, late fees, and all other charges provided in this
Agreement or that you (or anyone you allow to use your Account) agree to pay; and (c) collection costs
and attorneys' fees to the extent permitted by applicable law if your Account should go into default. If
your Account is a joint Account, all joint Account holders promise to pay and be jointly and individually
responsible for all amounts due under this Agreement.
Available Credit. We will assign you a credit limit, and we will indicate your current credit limit on each
Statement. You agree not to exceed the credit limit that we establish for you. If you request a
transaction that would exceed the credit limit, we may decline it or we may allow the transaction
without increasing your credit limit. You will be obligated to pay any amount in excess of your credit
limit in accordance with the terms of this Agreement. We reserve the right to delay an immediate
increase in available credit due to a payment(s) made on your WebBank /Gettington Credit Account We
may increase or reduce your credit limit, or suspend or terminate your Account, at any time with or
without cause. We will provide notice to you to the extent required by applicable law.
Statements. We will send you a Statement covering each billing cycle in which you have a balance
(including deferred balances, if applicable), or if required by law. Billing cycles are approximately one
month long. Each Statement will reflect: (a) the total amount you owed on the first day of your billing
cycle (called the "previous balance"), which will include any deferred balance (see below under the
heading "Deferral Periods"); (b) payments, credits, purchases and interest charges, and all other charges
made to your Account during the billing cycle; (c) the total amount you owed at the end of the billing
cycle (called "new balance"); (d) the minimum payment you must make (called the "minimum
payment"); and (e) the date by which the minimum payment must be paid to avoid a late charge.
Protections Under the Military Lending Act: Federal law provides important protections to members of
the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost
of consumer credit to a member of the Armed Forces and his or her dependent (a “Covered Borrower”)
may not exceed an annual percentage rate of 36 percent. This rate must include the cost of SafeLine,
our optional credit protection product. We do not charge application or participation fees.
You are a Covered Borrower if at the time of establishing this account you are an active duty service
member or an active Guard or Reserve duty member, or you are a qualifying dependent of that
member.
If you are a Covered Borrower, the provisions of this WebBank/Gettington Credit Account relating to
arbitration do not apply to this WebBank/Gettington Credit Account involving consumer credit.

Oral Disclosure: If you are a Covered Borrower, you may obtain information about the account,
including information about the payment obligation, by calling us toll-free, at 844-403-7058
Payments. Each month, your minimum payment is due by the date set forth on the Statement, which
will be at least 24 days from the Statement date. You may pay more than the minimum payment, up to
the entire new balance, at any time.
Calculating your minimum payment. Your minimum payment each month will be your Account’s
scheduled minimum payment amount plus any amount that is past due.
Your Account minimum payment amount is determined by the purchases and balances on your
Account. When you make a purchase, if you do not already have an outstanding balance, then your
minimum payment amount will be equal to 5.5% of the original purchase price or $20.00,
whichever is greater at the time of purchase. This minimum payment amount will remain fixed until
any one of the following events occurs: (a) any return is posted to your Account; (b) a new
purchase is added to your balance. When any of these events occurs, we will recalculate the
minimum payment amount to be equal to 5.5% of the balance or $20.00, whichever is greater at
the time of our recalculation. When your payments reduce your balance to $0, then the minimum
payment due will be equal to $0.
Payment Instructions. All payments made by mail must be made by check or money order, following the
instructions in this Agreement and on your Statement. You agree that we may return any payment you
make, without applying the payment to your Account and without presentment or protest, for reasons
including, but not limited to, that the check or money order: (1) is not drawn on the U.S. Post Office or a
financial institution located in the United States; (2) is missing a signature; (3) is drawn with different
numeric and written amounts; (4) contains a restrictive endorsement; (5) is post-dated; (6) is not
payable to WebBank or its assigns; or (7) is not payable in U.S. dollars. If we accept a check payment
made in U.S. dollars and drawn on a financial institution not located in the United States, you agree to
pay any bank collection fees we incur. We can accept late or partial payments, or checks or money
orders marked "Payment in Full" or otherwise restrictively endorsed, without losing any of our rights
under this Agreement. All payments under this Agreement must be received at the address specified on
your billing statement. Payments may also be made electronically on the web or phone, by ACH
payment from a checking or savings account. However, you may not make a payment using any credit
card issued by WebBank. We may charge a processing fee for payments made by means other than mail,
and the fee will be disclosed at the time you request to make a payment.
How We Figure Periodic Finance Charges. If the total periodic interest charges for a month are less
than $0.50 then we charge a minimum periodic interest charge of $0.50 which we will apply to the
applicable balance.
Determining the Finance Charge on your Account. To determine the amount of interest charges
applicable to your Account we multiply the Average Daily Balance times the monthly periodic rate for
the plan.
Average Daily Balance. To get the Average Daily Balance, we take the beginning balance of your
Account each day, add any new purchases on that day, and subtract any payments or credits we apply
that day. We add interest charges to your Account on a monthly basis. We add other charges and fees,
such as late fees, to your Account on the day that such charges or fees are posted to the Account. If your
Account has an overall credit balance, we treat this as a $0 balance. This gives us the daily balance. Then

we add up all the daily balances for each day in the billing cycle and divide the total by the number of
days in the billing cycle. This gives us the Average Daily Balance.
Non-Variable APR. Your Annual Percentage Rate is 29.99%, which corresponds to a monthly periodic
rate of 2.500%. This is a non-variable rate. The finance charges that are assessed, including the monthly
periodic rate, will be in amounts or at rates that do not exceed those permitted by law. The amount of
periodic interest charges and APRs are subject to change. See below under the heading “Change of
Terms (including Interest Charges).”
When interest charges begin to accrue. Interest charges begin to accrue on each purchase on the date
of the purchase. However, if you paid the new balance on your previous Statement by the payment due
date shown on that statement, then: (1) if you pay the new balance on your current billing statement by
the payment due date shown, we impose no interest charges on purchases during the current billing
cycle, and (2) if you make a payment by the payment due date shown on your current statement that is
less than the new balance, we will credit that payment as of the first day in your current billing cycle. In
addition, if your previous Statement reflected a new balance and you did not pay that new balance in
full by the payment due date on that previous statement, then we will not impose interest charges on
any purchases during the current billing cycle if you pay the new balance shown on your current
Statement by the payment due date reflected on that current Statement.
Deferral Periods. From time to time, we may offer you the opportunity to enter into promotions. Terms
of these promotions will be provided in connection with any offers.
Late Fees. Late fees will be equal to your minimum payment due with a maximum amount of up to
$29.00 for the first time offense and will increase to a maximum amount of $40.00 if you did not make
your minimum payment on time in any one of the 6 prior cycles, (or the extent permitted by law). The
late fee will never be greater than your minimum payment due to which the late fee relates.
Returned Payment Fee. Returned payment fees will be equal to your minimum payment with a
maximum amount of up to $29.00 for the first time offense and will increase to a maximum amount of
$40.00 if you had any returned payments in any one of your 6 prior billing cycles (or to the extent
permitted by applicable law). The returned payment fee will never be greater than your most recent
minimum payment due.
No Annual Account Fee. You are not charged a separate annual fee to maintain your account.
Application of Payments. Each payment you send to us will be applied to your Account in a manner
consistent with applicable law. Generally, we will apply your payment first to satisfy all minimum
payments due. You may pay the entire balance on your account at any time without incurring any
additional charge for prepayment.
Change of Terms (including Interest Charges). Subject to applicable law, we may change or terminate
any term of this Agreement or add new terms at any time, including, without limitation, adding or
increasing fees, increasing your minimum payment and increasing the rate or amount of interest
charges or changing the method of computing the balance upon which interest charges are assessed.
Prior written notice will be provided to you when required by applicable law. Changes may apply to new
and outstanding balances, subject to any limitations under applicable law.
Default. You will be in default under this Agreement if: (a) you fail to make at least the minimum
payment by the Payment Due Date specified on your Statement; (b) you violate any other provision of
this Agreement; (c) you die; (d) you become the subject of bankruptcy or insolvency proceedings; (e)
you or any part of your property becomes the object of attachment, foreclosure, repossession, lien,
judgment, or garnishment proceedings; (I) you fail to provide to us any information we reasonably deem
necessary; (g) you supply us with misleading, false, incomplete or incorrect information; (h) we receive

information indicating that you are unable to perform the terms and conditions of this Agreement; (i)
you move out of the United States; or (j)you use your Account in an unlawful manner. Upon default, we
have the right to require you to pay your entire Account balance (including all deferred purchases and
all accrued but unpaid charges) immediately, and to sue you for what you owe. You will pay our court
costs, reasonable attorneys' fees and other collection costs related to the default to the extent
permitted by applicable law. Following any default, any balances outstanding under this Agreement will
continue to accrue interest charges until paid in full and will be subject to all the terms and conditions of
this Agreement, except that we will apply your payments first to attorneys' fees and other court costs,
and then in the order set forth in the Application of Payments section.
Closing Your Account. We can close your Account at any time. You can cancel or close your Account at
any time by writing to us at WebBank, Gettington Credit Account, P.O. Box 0260, St Cloud, MN 563950260. If we have issued you a card with your Account number, you must cut it in half and return it to us.
You may not use your Account for any purchases after you cancel or close your Account. If you do not
pay us in full when you cancel, your outstanding balances will continue to accrue interest charges and
other charges, and will be subject to the terms and conditions of this Agreement.
Liability for Unauthorized Use / Lost or Stolen Account Numbers. If you notice the loss or theft of your
credit account number or a possible unauthorized use of your card, you should write to us immediately
at WebBank, Gettington Credit Account, P.O. Box 0260, St Cloud, MN 56395-0260, or call as at 1-866688-1091. You will not be liable for any unauthorized use that occurs after you notify us. You may,
however, be liable for unauthorized use that occurs before you notify us. In any case, your liability will
not exceed $50. However, unauthorized use does not include use by a person whom you have given the
credit account number to or authority to use the Account, and you will be liable for all use by such a
user. To terminate this authority you must send us notice in writing.
Change of Name, Address, Telephone Number or Employment. Notify us immediately of any change in
your name, mailing address, telephone number or place of employment. Send changes to: WebBank,
Gettington Credit Account, P.O. Box 0260, St Cloud, MN 56395-0260.
Consent to Use of Telephone Numbers. You authorize WebBank/Gettington, their affiliates, agents,
and others calling at their request or on their behalf to contact you at any number (i) you have provided
to us (ii) from which you have called us, or (iii) which we obtain and believe we can reach you at. We
may contact you in any way, such as calling, texting, using an automated dialer or using pre-recorded
messages. We may contact you on a mobile, wireless, or similar device, even if you are charged for it by
your provider.
No Oral Modifications: This Agreement cannot be changed orally.
Assignment of Account. We may sell, assign or transfer your Account or any portion thereof without
notice to you. You may not sell, assign or transfer your Account.
Reporting and Monitoring. We may report information about your Account to credit bureaus. Late
payments, missed payments, or other defaults on your Account may be reflected in your credit report.
You agree that any government agency may release your residence address to us, should it become
necessary to locate you. You agree that we may record your calls, and that our supervisory personnel
may listen to telephone calls between you and our representatives in order to evaluate the quality of
our service to you and other cardholders.
Updated Financial and Other Information. Upon request, you agree to promptly give us accurate
financial and other information about yourself. We may obtain information about you from credit
bureaus or other third parties at any time. You agree that the information that you provide to us is
accurate as of the date provided, and that if the information changes you will contact us with notice of
the change.

Governing Law/Enforceability. This agreement and your Account will be governed by federal law
applicable to a FDIC-insured institution and, to the extent permitted by federal law, the laws of Utah
without regard to its choice of law provisions. This Agreement is entered into between you and us, and
received by us, in Utah, and we extend credit to you from Utah, whether or not you live in Utah. We will
make the decision whether to open an account for you based on criteria established in Utah. If any
provision of this Agreement is determined to be void or unenforceable under any applicable law, rule or
regulation, all other provisions of this Agreement will remain enforceable (except as specifically
addressed in the Arbitration provision). Our failure to exercise any of our rights under this Agreement
will not be deemed to waive our rights to exercise such rights in the future. This Agreement is a final
expression of the agreement between you and us and this Agreement may not be contradicted by
evidence of any alleged oral agreement.
Arbitration. Please review this provision carefully. It provides that any dispute may be resolved by
binding arbitration. Arbitration replaces the right to go to court and the right to have a jury decide a
dispute. Under this provision, your rights may be substantially limited in the event of a dispute. You
may opt out of this Arbitration provision by following the instructions below.
By accepting this Agreement, unless you opt out by following the instructions below, you agree that
either you or we, at our sole discretion, can choose to have any dispute arising out of or relating to this
Agreement or our relationship resolved by binding arbitration. If arbitration is chosen by any party,
neither you nor we will have the right to litigate that dispute in court or to have a jury trial on that
dispute. Pre-arbitration discovery will be permitted only as allowed by the arbitration rules. In addition,
you will not have the right to participate as a representative or member of any class of claimants
pertaining to any dispute subject to arbitration. The arbitrator's decision will generally be final and
binding. Other rights that you would have if you went to court may also not be available in arbitration. It
is important that you read the entire Arbitration provision carefully before accepting the terms of this
Agreement.
For purposes of this Arbitration provision, "dispute" shall be construed as broadly as possible, and shall
include any claim, dispute or controversy (whether in contract, regulatory, tort or otherwise, whether
pre-existing, present or future and including constitutional, statutory, common law, intentional tort and
equitable claims) arising from or relating to this Agreement, the credit offered or provided to you, or the
goods or services you purchase; the actions of yourself, us, or third parties; or the validity of this
Agreement or this Arbitration provision. It includes disputes brought as counterclaims, cross claims, or
third party claims. A party that has brought a dispute in a court may elect to arbitrate any other dispute
that may be raised in that litigation. Disputes brought as part of a class action or other representative
basis are subject to arbitration on an individual (non-class, non-representative) basis. IF YOU DO NOT
OPT OUT, THEN YOU WILL HAVE WAIVED YOUR RIGHT TO INDICATE OR PARTICIPATE IN A CLASS
ACTION RELATED TO THIS AGREEMENT. In this Arbitration provision, the words "we," "us," and "our"
shall include WebBank and any assignees of any of WebBank's rights, any merchant from which you
purchased goods or services using your Account, as well as their respective affiliates, servicers,
employees, agents, and further assigns.
Any arbitration under this Arbitration provision shall be administered by the American Arbitration
Association ("AAA") under the rules applicable to the resolution of consumer disputes in effect when the
dispute is filed. The arbitrator shall have no authority to hear any disputes on a class action or
representative basis. Neither you nor we may consolidate or join the disputes of other persons who may
have similar disputes into a single arbitration, other than the disputes of or against joint account
holders. You may obtain rules and forms by calling the AAA at 1-800-778-78791 or visiting www.adr.org.
Any arbitration hearing that you attend will take place in the Federal judicial district where you reside.
We will not elect arbitration of any dispute that is filed as an individual matter by you in a small claims
or similar court, so long as the dispute is pending on an individual basis in such court.

A single, neutral arbitrator will decide any disputes. The arbitrator must be either a retired or former
judge or a lawyer with no less than 10 years' experience, selected in accordance with the AAA's rules.
The arbitrator will apply applicable substantive law consistent with the FAA and applicable statutes of
limitations, will honor claims of privilege under applicable law, and will have the power to award to a
party any damages or other relief provided under applicable law. Any party may choose to have a
hearing, and may choose to be represented by counsel. The arbitrator will issue an award in writing
and, upon request, will provide a written explanation for the award. Judgment upon the award rendered
by the arbitrator may be entered in any court having jurisdiction.
The party initiating an arbitration must pay the AAA's initial filing fee, although you can ask the AAA to
waive the filing fee and we will consider your request that we pay the filing fee on your behalf. We will
pay any subsequent administration fees imposed by the AAA, and we will pay the arbitrator's fee for up
to one day of hearings. All other fees will be allocated as provided by the AAA's rules and applicable law.
If you prevail in arbitration, we will reimburse you any fees paid to the AAA. However, even if we prevail,
we will not seek reimbursement from you of any fees we paid to the AAA unless the arbitrator
determines that your dispute was brought in bad faith. Each party shall bear its own costs of attorneys,
experts, and witness fees, regardless of which party prevails in the arbitration. However, if applicable
substantive law gives you the right to seek reimbursement of attorneys' fees or other fees or costs, then
that right shall also apply in the arbitration.
You have the right to opt out of this Arbitration provision, but you may only do so in the first 30 days
after the first transaction is posted to your Account. In order to opt out, you must write us at WebBank
Gettington Arbitration, P.O. Box 0260, St Cloud, MN 56395-0260. You must inform us of your decision to
opt out, and sign the notice.
This Arbitration provision shall survive repayment of your extension of credit and termination of your
Account. This Arbitration provision is made in connection with interstate commerce, and shall be
governed by the Federal Arbitration Act, 9 USC Sections 1 through 16. If any part of this Arbitration
provision is determined to be void or unenforceable, then this entire Arbitration provision shall be
considered null and void; however, it shall not affect the validity of the rest of this Agreement.
Credit Bureau Disputes. If you believe we inaccurately reported credit history information about you or
your Account to a credit reporting agency, write to us at: Credit Bureau Reporting Services, P.O. Box
6250 Ridgewood Road, St Cloud, MN 56303. Please include a copy of the credit report reflecting the
information that you believe is inaccurate.
All Accounts, including California and Utah Residents: As required by law, you are hereby notified that
a negative credit report reflecting on your credit record may be submitted to a credit reporting agency if
you fail to fulfill the terms of your credit obligations.
All Accounts, including New York/Rhode Island/Vermont Residents: You agree to give WebBank (1801-456-8350) (as well as its agents, successors, and assigns)permission to access your credit report in
connection with any transaction, or extension of credit, and on an ongoing basis, for the purpose of
reviewing your Account, adjusting the credit limit on your Account, taking collection action on your
Account, or for any other legitimate purposes associated with your Account. Upon your request, you will
be informed of whether or not a consumer credit report was ordered, and if it was, you will be given the
name and address of the consumer reporting agency that furnished the report.
Connecticut Residents: Damages may be imposed if a check is dishonored. Connecticut General
Statutes § 52-565A authorized our collection of damages for dishonored checks; criminal penalties may
also apply.

Maryland Residents: Maryland law requires that if you send us a written request about the status of
your account and we do not answer that request within 60 days after we receive it, you are not required
to pay a finance charge for that 60 day period or until we answer.
Missouri Residents: If you prepay your Account in full, you may be entitled to a refund of certain
interest under Mo. Rev. Stat § 408.170.
New Hampshire Residents: Reasonable attorney’s fees will be awarded to you if you prevail in (a) any
action, suit or proceeding brought by us, or (b) any action brought by you. If you successfully assert a
partial defense or set-off, recoupment or counterclaim to an action brought by us, the court may
withhold from us an entire amount or such portion of the attorney fees as the court considers equitable.
New York Residents: New York residents may contact the New York state department of financial
services by telephone or visit its website for free information on comparative credit card rates, fees and
grace periods. The New York state department of financial services' telephone number is 1-800-3423736, and its website is http://www.dfs.ny.gov
Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally
available to all creditworthy customers, and that credit reporting agencies maintain separate credit
histories on each individual upon request. The Ohio Civil Rights Commission administers compliance
with this law.
Married Wisconsin Residents: No provision of any marital property agreement, unilateral agreement, or
court decree under Wisconsin's Marital Property Act will adversely affect a creditor's interest unless
prior to the time of credit is granted, the creditor is furnished a copy of that agreement or decree or is
given complete information about the agreement or decree. We may require that you pay the entire
amount that you have outstanding if you do not pay amounts that come due 2 times within any 12
month period. You will also have to pay your entire amount outstanding if you fail to do anything
required in this agreement and that failure makes it likely that you not be able to pay your bills from us
as they become due.
Texas Residents: To contact us about this account call 1-866-688-1091. This contact is subject in whole
or in part to Texas law which is enforced by the Consumer Credit Commissioner, 2601 North Lamar
Boulevard, Austin, Texas 78705-42073. Phone: (800) 538-1579; www.occc.state.tx.us. Contact the
Commissioner relative to inquires or complaints.
End of Terms
YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
WHAT TO DO IF YOU THINK YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on your statement, write to us at:
Gettington Account Services, P.O. Box 1500, St Cloud, MN 56395-1500
In your letter, give us the following information
•
•
•

Account Information: Your name and Gettington Credit Account number
Dollar Amount: The dollar amount of the suspected error
Description of Problem: If you think there is an error on your bill, describe what you believe
is wrong and why you believe it is a mistake.

You must contact us within 60 days after the error appeared on your statement. You must notify
us of any potential errors in writing. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.

WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error, the following are true:
•
•
•
•

We cannot try to collect the amount in question, or report you as delinquent on that
amount.
The charge in question may remain on your statement, and we may continue to charge you
interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder
of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
•
•

If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
If we do not believe that there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as delinquent if you do not pay
the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning the bill. We must tell you the name of anyone to
whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of these rules, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home State or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or services.
2. You must have used your credit card for the purchase.
3. You must have not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at: Gettington Account Services, P.O. Box 1500, St Cloud, MN 56395-1500.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do
not pay we may report you as delinquent.
03162020

